     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
October 18, 2010                                                          New York, NY 10278



Report Number: A-02-09-02003

Allison Blake, Ph.D., L.S.W.
Commissioner
New Jersey Department of Children and Families
222 South Warren Street
P.O. Box 729
Trenton, NJ 08625-0729-700

Dear Dr. Blake:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Jersey’s Title IV-E Adoption Assistance Costs
for Federal Fiscal Year 2006. We will forward a copy of this report to the HHS action official
noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-09-02003 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Joyce A. Thomas
Regional Administrator
Administration for Children and Families, Region II
26 Federal Plaza, Room 4114
New York, NY 10278
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





   REVIEW OF NEW JERSEY’S 

    TITLE IV-E ADOPTION

    ASSISTANCE COSTS FOR

  FEDERAL FISCAL YEAR 2006





                      Daniel R. Levinson

                       Inspector General


                        October 2010

                        A-02-09-02003

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                              INTRODUCTION


BACKGROUND

Title IV-E Adoption Assistance Program

Pursuant to Title I -E of the Social Security Act (the Act), the U.S. Department of Health &
Human Services, Administration for Children and Families (ACF) administers the foster care
and adoption assistance programs. The foster care program helps States provide proper care for
children who are placed in a foster home or institution. The adoption assistance program helps
States encourage the adoption of children with special needs.

The Federal Government shares in the States’ cost of adoption assistance for payments for
children who meet supplemental security income (SSI) requirements or other specific
requirements. 1 To meet SSI requirements, a child must be disabled, his or her household income
must be below a specified ceiling, and he or she must be under a specific age. Children who do
not meet SSI requirements may still be eligible for Federal reimbursement if they meet other
specific requirements. One of these requirements is that the income of the child’s family at the
time the child was removed from the home not exceed the ceiling for the former Aid to Families
with Dependent Children (AFDC) program. Children who meet AFDC eligibility requirements
qualify for Title IV-E assistance if their removal from the home was based on either:

    •	 a voluntary placement agreement, provided that the child is receiving Title IV-E foster
       care payments, or

    •	 a judicial determination obtained within 6 months of the child’s removal from the home
       demonstrating that continuation in the home would be contrary to the child’s welfare.

New Jersey’s Title IV-E Adoption Assistance Program

In New Jersey, the Department of Children and Families (the State agency) is responsible for
administering the Title IV-E adoption assistance program. 2 To claim these costs for Title IV-E
reimbursement, the State agency submits claims on a quarterly basis to ACF. To determine its
quarterly expenditures, the State agency uses an electronic database that contains adoption
assistance subsidy information for the entire State.

For Federal fiscal year (FFY) 2006 (October 1, 2005, through September 30, 2006), the State
agency claimed adoption assistance payments for 5,237 children, totaling $34,673,762
($17,336,881 Federal share), in Title IV-E adoption assistance payments on its Federal quarterly

1
 The Federal Government pays its share of a State’s adoption assistance payments based on the Federal medical
assistance percentage, which varies depending on the State’s relative per capita income.
2
 Within the State agency, the Division of Youth and Family Services (DYFS) is responsible for investigating
allegations of child abuse and neglect and, if necessary, arranging for child protection and family treatment. DYFS
may ask the local family court to place the child in foster care. If the family court determines a child cannot be
safely returned home from foster care, DYFS assists with adoption planning.

                                                         1

expenditure reports. We reviewed payments associated with the 100 children for whom the State
received the highest dollar amounts (high-dollar payments).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal eligibility
requirements in claiming high-dollar payments for Federal reimbursement.

Scope

We reviewed the eligibility of children for whom the State agency claimed Title IV-E adoption
assistance costs in FFY 2006. Of the 5,237 children for whom the State agency received
adoption assistance payments, we limited our review to the 100 children for whom the State
agency received the highest dollar amounts. 3

We performed our fieldwork at the State agency in Trenton, New Jersey from April through
December 2009.

Methodology

To accomplish our objective, we:

      •	 reviewed applicable Federal laws and regulations and ACF program and policy

         announcements, 


      •	 reconciled total adoption assistance payments that the State agency claimed in FFY 2006
         to individual supporting claims, and

      •	 reviewed the eligibility case file for each of the 100 children for whom the State agency
         received the highest dollar amounts in FFY 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                            RESULTS OF AUDIT

The State agency complied with Federal eligibility requirements in claiming high-dollar
payments for Federal reimbursement.



3
    Adoption assistance payments associated for these 100 children for FFY 2006 was $1,661,117.

                                                         2

